                                                                                                 1
                                                                                                  I

                                         NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                CLOSEOUT NIEMORANDUM

TO: AIGI       File Number: I97110055
                                                                                                 It
                                                                               Date: 02 March 2002
                                                                                 I
Subject: Closeout Memo
                                                                                         II
                                                                                         1
                                                                                                      Page 1 of 1



      extracted fiom the file in conformance with standard closeout documents.
                                                                                         I
                                                                                             ~
      There was no closeout written at the time this case was closed. The following information was


      Our office was informed that the subjects1 were alleged to have a conflict of interest with their
      positions at NSF and their roles as PIS on an NSF grant.2 OIG reviewed the *ant jacket regarding
      potential conflicts of interest issues. Both subjects were identified as PIS an the grant and they
      addressed their conflicts by withdrawing as PIS. No funds have been expebded on the grant and
      therefore no issues existed regarding improper grant expenditures.
                                                                                         I

      Accordingly this case is closed.                                                   I




                                                                                     i
                                                                                     1
                                                                                     I
                                                                                         L




                                                                                     i
     I          Prepared by:                      Cleared by:
                                                                                     I




   Name:
               Agent:          Attorney:        Supervisor:     AIGI

                                                                                 1   I

 Signature &
    date:                                                                        i
                                                                                 I
